        OIG
        OFFICE OF INSPECTOR GENERAL

                                  Catalyst for Improving the Environment



Audit Report




        EPA Could Increase Savings and
        Improve Quality Through Greater Use of
        Performance-Based Service Contracts

        Report No. 2003-P-00008


        March 31, 2003
Report Contributors:                       Herbert Maletz
                                           Denton Stafford
                                           Charles Watts
                                           Brian Lick




Abbreviations

EPA          Environmental Protection Agency
FAR          Federal Acquisition Regulation
FPDS         Federal Procurement Data System
GAO          General Accounting Office
ICMS         Integrated Contracts Management System
OIG          Office of Inspector General
OMB          Office of Management and Budget
PBSC         Performance-Based Service Contracting
START        Superfund Technical Assessment and Response Team
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                WASHINGTON , DC 20460




                                                                                  OFFICE OF
                                                                              INSPECTOR GENERAL


                                         March 31, 2003
MEMORANDUM

SUBJECT:            Audit Report:
                    EPA Could Increase Savings and Improve Quality
                    Through Greater Use of Performance-Based Service Contracts
                    Report No. 2003-P-00008


FROM:               Robert Mitchell /signed/
                    Director for Contract Audits

TO:                 Morris X. Winn
                    Assistant Administrator
                    Office of Administration and Resources Management


This is our final report on the subject audit conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This audit report contains findings that
describe the problems the OIG has identified and corrective actions the OIG recommends. This
audit report represents the opinion of the OIG and the findings contained in this report do not
necessarily represent the final EPA position. Final determinations on matters in this audit report
will be made by EPA managers in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Order 2750, you are required to provide a written response to the
findings and recommendations presented in this draft report within 90 calendar days of the date
of this report. You should include a corrective actions plan for agreed-upon actions, including
milestone dates. We have no objection to the further release of this report to the public. For your
convenience, this report will be available at http://www.epa.gov/oig/eroom.htm.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0891
or Herbert Maletz at (212) 637-3058.
                   Executive Summary

Purpose

          Performance-Based Service Contracting (PBSC) is an acquisition methodology in
          which the Government pays for results rather than effort or process. Office of
          Management and Budget (OMB) studies have shown that PBSC saves money and
          improves contractor performance. While PBSC has existed for many years, it has
          not been widely adopted throughout the Federal Government.

          We conducted this audit to determine whether the Environmental Protection
          Agency (EPA) effectively implemented PBSC to the maximum extent possible.
          Our specific objectives were to determine whether EPA was:

          " Awarding performance-based service contracts whenever possible and
            designing the contracts to take full advantage of the benefits.

          " Reporting accurate PBSC information to OMB.

Results of Review
          EPA has made limited use of PBSC. Generally, EPA has only used PBSC to
          obtain commercially available services, such as janitorial and landscaping work.
          We found that EPA awarded contracts that were not performance-based for
          services previously awarded as performance-based. Also, many contracts EPA
          identified as performance-based were not designed to take advantage of PBSC s
          benefits. These contracts were too prescriptive in how the work was to be carried
          out or did not provide meaningful incentives or disincentives. Based on
          discussions with Agency officials, this occurred because EPA did not adequately
          plan or hold officials accountable for increasing PBSC use, and there was a
          general reluctance to shift the responsibility for outcomes to contractors. As a
          result, EPA missed opportunities to achieve greater cost savings and improve
          contractor performance. Of the $599 million in PBSC-eligible obligations for the
          9-month period reviewed, we determined that EPA could have saved as much as
          $72.5 million by better applying PBSC.

          Also, OMB s Federal Procurement Data System (FPDS) showed nearly 50 percent
          less PBSC obligations than EPA reported in its own Integrated Contracts
          Management System (ICMS). This primarily occurred because FPDS did not
          show performance-based task orders issued under non-performance-based
          contracts as PBSC; EPA made the necessary corrections in ICMS but had not
          submitted them to FPDS. In addition, EPA officials said ICMS lacked the
          capability to provide all data needed in FPDS. As a result, EPA s contracting

                                           i
         actions were inaccurately portrayed in the national database, which serves as a
         basis for reporting to Congress, the President, and the general public; and for
         performing analysis.

Recommendations

         We recommend that the Assistant Administrator for Administration and
         Resources Management take certain actions to improve accountability and
         procedures in relation to PBSC. We also recommend that the Assistant
         Administrator take actions so that the accuracy of ICMS is reviewed and that
         ICMS and FPDS data is periodically compared.

Agency Comments and OIG Evaluation

         On February 14, 2003, we issued a draft report to the Office of Administration
         and Resources Management, and received a response on March 19, 2003
         (see Appendix B). The Office generally agreed with the findings and
         recommendations and included planned corrective actions. The Office
         acknowledged significant problems with contract tracking systems, and noted a
         new system it has proposed will correct the problems. In its response, the Office
         also provided additional information, and we clarified our final report as needed.




                                          ii
                                     Table of Contents

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i




 Chapters

          1         Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1


          2         EPA Needs to Increase Use of PBSC . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          3


          3         EPA Needs to Improve PBSC Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . 13




 Appendices
          A         Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


          B         Agency Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


          C         Report Distribution              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                               Chapter 1
                                Introduction

Purpose

          Performance-Based Service Contracting (PBSC) is an acquisition methodology in
          which the Government pays for results rather than effort or process. Office of
          Management and Budget (OMB) studies have shown that PBSC saves money and
          improves contractor performance. While PBSC has existed for many years, it has
          not been widely adopted throughout the Federal Government.

          We conducted this audit to determine whether the Environmental Protection
          Agency (EPA) effectively implemented PBSC to the maximum extent possible.
          Our specific objectives were to determine whether EPA was:

          " Awarding performance-based service contracts whenever possible and
            designing the contracts to take full advantage of the benefits.

          " Reporting accurate PBSC information to OMB.

Background

          PBSC allows contractors to propose the most innovative, effective, efficient, and
          economical approach their business experience and ability will allow. Such
          contracts can help an agency avoid cost overruns, schedule delays, and failure to
          achieve specified results. EPA participated in OMB s PBSC studies as well as its
          own pilot projects and has experienced these benefits.

          OMB s Office of Federal Procurement Policy has encouraged greater use of PBSC
          for over 10 years. In April 1991, this Office issued Policy Letter 91-2, Service
          Contracting. This Policy Letter defined PBSC, required the use of PBSC where
          practicable, and required agencies to better match their acquisition and contract
          administration strategies to the specific requirements.

          Policy Letter 91-2 was incorporated into the Federal Acquisition Regulation
          (FAR) in 1997. Subpart 37.1 of the FAR, Service Contracts-General, states when
          acquiring services, agencies must use performance-based contracting methods to
          the maximum extent practicable, except for architect-engineer services,
          construction, utility services, and services incidental to supply purchases.




                                          1
         FAR Subpart 37.6, Performance-Based Contracting, first issued in 1997,
         prescribes policies and procedures for PBSC. The FAR notes performance-based
         contracts:

         " Describe the requirements in terms of results required rather than the methods
           of performing the work;
         " Use measurable performance standards (i.e., terms of quality, timeliness,
           quantity, etc.) and quality assurance surveillance plans;
         " Specify procedures for reductions of fee or for reductions to the price of a
           fixed-price contract when services are not performed or do not meet contract
           requirements; and
         " Include performance incentives where appropriate.

         OMB s Office of Federal Procurement Policy issued Information on Best
         Practices for Performance-Based Service Contracting in October 1998. This
         guide notes studies have shown that PBSC has the potential to improve customer
         satisfaction by more than 18 percent and achieve average contract cost savings of
         15 percent. However, the Office noted that application of only selected aspects of
         the PBSC methodology can limit benefits.

         Agencies must report PBSC information to the Federal Procurement Data System,
         which is the central repository of statistical information on Federal contracting.
         The system contains detailed information on contract actions over $25,000, and
         summary data on procurements less than $25,000.

Scope and Methodology

         From October 2001 through June 2002, EPA acquired approximately
         $599 million in services that were PBSC-eligible. This information was obtained
         from the November 7, 2002, Integrated Contracts Management System (ICMS).
         We performed this audit in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States. We judgmentally selected
         a sample of 30 contracts and task orders for review. We assessed EPA s policies
         and procedures to ensure performance-based contracts were awarded when
         possible, determined whether contracts statements of work were designed with
         performance-based attributes, and determined whether PBSC information was
         reported accurately. During the audit, we interviewed numerous personnel. We
         performed this audit from December 2001 through November 2002. As part of
         our review, we took into account a prior General Accounting Office (GAO) report
         (GAO-02-1049, Guidance Needed for Using Performance-Based Service
         Contracting, September 2002). Details on our scope and methodology are in
         Appendix A.




                                          2
                               Chapter 2
          EPA Needs to Increase Use of PBSC
         EPA has made limited use of PBSC. Generally, EPA has used PBSC to obtain
         commercially available services, such as janitorial and landscaping work. We
         found that EPA awarded non-performance-based contracts for services previously
         awarded as performance-based. Also, many contracts EPA identified as
         performance-based were not designed to take advantage of PBSC s benefits.
         These contracts were too prescriptive in how the work was to be carried out or did
         not provide meaningful incentives or disincentives. Based on discussions with
         Agency officials, these conditions occurred because EPA did not adequately plan
         or hold officials accountable for increasing PBSC use, and there was a general
         reluctance to shift the responsibility for outcomes to contractors. As a result, EPA
         missed opportunities to achieve greater cost savings and improve contractor
         performance. Of the $599 million in PBSC-eligible obligations for the 9-month
         period ended June 30, 2002, we determined that EPA could have saved as much
         as $72.5 million by better applying PBSC.

OMB Has Encouraged Greater Use of PBSC Since 1991

         As noted in Chapter 1, OMB has required the use of PBSC where practicable
         since 1991. In 1997, this requirement was incorporated into the FAR,
         Subpart 37.6, Performance-Based Contracting. PBSC is intended to ensure that
         required performance quality levels are achieved and that total payment is related
         to the degree that services performed meet contract standards. Performance-based
         contracts describe the desired end result (outcomes) expected of the contractor,
         but do not direct how the work is to be performed.

         In April 2002, FAR Subpart 7.105, Contents of Written Acquisition Plans,
         required that acquisition planners develop written acquisition plans for service
         contracts or task orders that describe strategies for implementing performance-
         based contracting methods, or provide rationale for not using those methods.
         EPA s Contracts Management Manual, Chapter 1 (February 1999) notes EPA s
         Senior Resource Officials are the primary acquisition planners.

EPA Has Made Limited Use of PBSC

         Generally, EPA has limited PBSC to services performed widely in the commercial
         sector: custodial services, building maintenance, or landscaping. As noted in a
         GAO report, this was the case with many agencies. These services easily lend
         themselves to PBSC because measuring and specifying outcomes are relatively
         straightforward. Additionally, these generally non-complex services do not
         present substantial risk to the Government.

                                          3
         OMB has set Government-wide goals for PBSC. Beginning in fiscal 2001,
         10 percent of all eligible service contracting obligations were to be performance-
         based. The PBSC goals incrementally increase 10 percent annually until 2005.
         The goal for fiscal 2002 was 20 percent.

         For fiscal 2001, EPA reported approximately 11 percent of its eligible contract
         obligations were performance-based, and thus met its goal of 10 percent.
         However, for fiscal 2002, EPA only reported that 16.6 percent of contract
         obligations were performance-based, short of OMB s goal of 20 percent. EPA
         needs to increase its effort to meet OMB s PBSC goals.

EPA Could Award More Performance-Based Contracts

         Between 1998 and 2001, EPA awarded many contracts without employing PBSC
         attributes, for services similar to previously awarded EPA performance-based
         contracts. We reviewed 10 such contracts (with a maximum potential value of
         $16.3 million), as shown in Table 2-1:

            Table 2-1 : Contrac ts Not Pe rforman ce-Base d for W hich Sim ilar Services W ere
                              Previously Awarded as Performance-Based
            Contract                                                             Maximum
            Number                              Service                        Potential Value
          68-D-01-051     Cafeteria Services and Operation of EPA                    $264,000
                          Employee Store
          68-W-00-128     Voice Mail System Maintenance                               677,000
          68-W-00-125     Technical Support for Compliance Assurance                2,813,000
          68-W-99-078     Facility Operation and Maintenance Service for the          916,000
                          Manchester EP A Laboratory
          68-D-99-026     Landscape/G rounds Maintenanc e Support                     162,000
          68-D-99-014     National Performance Audit Program                        7,127,000
                          (Air Monitoring)
          68-W-99-012     Perimeter Guard Services                                  3,218,000
          68-D-98-166     Security Guard Services                                     505,000
          68-D-98-092     Peer Review, Workshops, Training Sessions, and              292,000
                          Conference S upport
          68-D-98-029     Maintenance Services for the National Air and               284,000
                          Radiation Laboratory
             Total                                                                $16,258,000


         Most of these contracts were for services widely performed in the commercial
         sector, and did not present substantial risk to the Agency. Measuring and
         specifying outcomes for these types of services were relatively straightforward.
         Based on the types of services acquired and the fact that EPA had previously
         awarded a performance-based contract of a similar nature, we believe these
         contracts could have been performance-based.

                                            4
         EPA Office of Acquisition Management officials said the above contracts were
         not performance-based for a variety of reasons, including urgency of need,
         inability to define performance objectives, and inexperience in using PBSC
         methods (some earlier contracts). The officials also stated the Voice Mail System
         Maintenance contract was not fully performance-based primarily because staff did
         not have enough time to convert the statement of work.

         In addition to the 10 non-performance-based contract files reviewed, we also
         selectively reviewed ICMS data as of June 30, 2002, and found instances where
         EPA awarded non-performance-based contracts even though contracts for similar
         services were previously performance-based:

          " ICMS reported four non-performance-based facilities operation support
            services contracts, even though at least seven other facilities operation support
            services contracts within the past 5 years were performance-based.

          " Two landscaping contracts were not identified as performance-based, even
            though in the last 2 years EPA awarded at least two other landscaping
            contracts identified as performance-based.

          " EPA awarded a janitorial/custodial contract not identified as performance
            based, even though within the last 5 years EPA awarded at least nine other
            performance-based janitorial/custodial contracts.

          " EPA awarded a non-performance-based mail service contract, even though
            within the last 5 years EPA has awarded at least five other performance-based
            mail services contracts.

Performance-Based Contracts Not Always Designed to Take
Advantage of Benefits

         Performance-based contracts were not always designed to take advantage of
         PBSC benefits. We reviewed 20 individual performance-based contracts and task
         orders ($77.8 million maximum potential value), which generally contained at
         least one of the following performance-based attributes required by FAR,
         Subpart 37.6:

          "   Performance requirements described in terms of results required.
          "   Measurable performance standards and quality assurance surveillance plans.
          "   Financial disincentives.
          "   Performance incentives.

         Eight of the contract actions appeared to generally be designed to take advantage
         of PBSC benefits, even though they may not have contained all four of the above

                                           5
PBSC attributes. However, in our opinion, the other 12 contracts were not
designed to take advantage of PBSC s benefits. These contracts PBSC attributes
were either prescriptive in how the work was to be carried out or did not provide
meaningful incentives to increase contractor efficiency or penalize contractors for
poor performance.

Performance-Based Contracts Designed to Take Advantage of PBSC
Benefits

The following eight performance-based contracts appeared to generally be
designed to take advantage of PBSC benefits (see Table 2-2). These contracts
exhibited many of the basic PBSC attributes.

                                 Table 2-2:
  Performanc e-Based C ontracts Design ed to Take Ad vantage o f PBSC B enefits
     Contract                                                         Maximum
     Number                               Service                   Potential Value
 68-C-01-025         Study to Determine Concentrations of                 $48,500
                     Pollutants in Waste Water
 68-D-01-049         Janitorial Services for Facilities                   732,000
 68-S3-00-02         START (Superfund Technical Assessment and             39,000
 W ork As smn t. #   Response Team) Rem oval Site Evaluation
 SE3-02-03-010
 68-W-00-075         Contract Laboratory Program-Analytical             2,245,000
                     Support
 68-W-00-095         Energy Star Hotline and Distribution Center        2,982,000
 68-W-01-018         ESAT (Environmental Services Assistance            8,148,000
 Task Order # 005    Tea m) Perf orm anc e Eva luatio n and Field
                     Support Services
 68-W-01-059         Warehousing and Storage Services                  13,557,000
 68-W-02-020         Property Management Services                       2,117,000
     Total                                                            $29,868,500


The START Removal Site Evaluation contract action illustrates how PBSC can
provide benefits. EPA only specified the desired end result, not the process to be
used. EPA obtained two competing proposals and found both to be technically
sound. However, while one firm proposed using standard sampling technology,
the other firm proposed using a new technology that had proven successful at
another site. The proposals differed significantly in estimated costs: the estimate
for the standard sampling technology was $154,000 while the new technology
estimate was $39,000, or $115,000 less. EPA selected the lower cost proposal.
By not being prescriptive, EPA opened the door to more innovative approaches
that cost less and possibly improved service.




                                    6
While the eight contract actions in Table 2-2 represent EPA s best PBSC efforts,
it is not our intent to suggest that the attributes could not be improved.

Contracts That Were Prescriptive

Seven contracts/actions, although identified as performance-based, were
prescriptive in how the work was to be performed, and frequently required
direction from EPA project officers (see Table 2-3). Most of these contracts were
for traditional, relatively low-risk services.

                    Table 2-3: Contracts That Were Prescriptive
     Contract                                                                Maximum
     Number                              Service                           Potential Value
 68-C-00-137       Stud y to Es tima te Se lecte d Ch em ical Le vels in     $13,800,000
                   Fish Tissue
 68-C-00-189       Security Guard Services                                     3,000,000
 68-D-98-169       Security Guard Services                                       774,000
 68-D-00-200       Facility Maintenance and Equipment Operation                4,600,000
                   of Lab
 68-S3-99-04       ERRS (Emergency Rapid Response Service)                     1,900,000
 Task Order # 12   Contamination Removal
 68-W-99-082       Administrative Support Services                             2,300,000
 68-W-01-002       Information Management Support Services                       343,000
    Total                                                                    $26,717,000


On the surface, these contracts appeared to contain the PBSC attributes.
However, a closer review indicated prescriptive statements of work that might
have impeded the contractor s innovation and freedom to decide how best to
perform the work. For example, one guard services contract (68-C-00-189)
prescribed the number of guards desired, specific posts to be manned, specific
sizes for uniform patches and vehicle lettering, and specific age of all guard
vehicles. These examples illustrate EPA s reluctance to allow contractors the
flexibility to use innovative approaches or shift responsibility for outcomes.

Incentives and Disincentives Not Meaningful

Five contracts/actions, which EPA identified as performance-based, did not have
meaningful incentives and/or disincentives. Although two provided negative
incentives, the proposed penalties were low dollar amounts. The other three did
not include any incentives (see Table 2-4).




                                   7
               Table 2-4: Incentives/Lack of Incentives Not Meaningful
     Contract                                                        Maximum
     Number                               Service                  Potential Value
 68-C-99-252         Envir onm enta l Imp act A nalys is                  $1,996,000
 68-C-99-254         Administrative Support Services                       2,573,000
 68-W-00-104         Security Support Services                            11,413,000
 68-W7-0055          Library Systems Support                                101,000
 Task Order # 408
 68-W7-0055          Operations of National Computer Center                5,106,000
 Task Order # 422
    Total                                                                $21,189,000


For example, while the administrative support services contract (68-C-99-254)
exhibited PBSC attributes, its negative incentives were not meaningful. The tasks
were organized in such a way that minuscule penalties could be assessed.
Specifically, the penalty assessed against poor performance for inventorying the
stockroom was 0.4 percent of $4,004.33 per month, or $16.02.

Superfund PBSC

While most of EPA s current performance-based contracts are for less complex
and lower risk services that are widely available in the commercial sector, its
largest contracts have been more complex, higher risk, cost reimbursable, level of
effort types, especially for the Superfund Program. These contracts place more of
the risk for cost and performance on the Government; contractors are only
required to give their best effort, and all reasonable and allowable costs are
reimbursed.

The Office of Acquisition Management and Office of Emergency and Remedial
Response developed PBSC model statements of work templates for various
Emergency Rapid Response Service, START, and Response Action Contract
assignments and tasks that take place on a regular basis. According to Office of
Emergency and Remedial Response officials, the overall structure of these
multi-year time and materials contracts was not developed using the PBSC
methodology, and the use of these templates was optional. These templates were
developed in 2002 as a temporary measure to increase PBSC use under the current
contracts, and were not widely used at the time of our review. Further, these
templates by design did not significantly change current contract management
practices of relying upon close EPA contractor oversight. Therefore, until the
basic contract incorporates all PBSC features and is managed accordingly, EPA
may not maximize PBSC benefits.




                                     8
More PBSC Planning and Accountability Needed

         To promote the use of PBSC, EPA s Office of Acquisition Management relied on
         a marketing strategy involving training and assistance to program offices.
         However, EPA did not adequately plan or hold responsible officials accountable
         for increasing PBSC s use. We believe this is primarily due to Agency officials
         reluctance to shift the responsibility for outcomes to contractors.

         Current PBSC Planning Not Specific Enough

         To meet the PBSC goals, the Office of Acquisition Management developed a
         short-term plan for fiscal 2002, which focused on:

          " Sharing responsibility for meeting the goal with program office customers;
          " Implementing additional, more focused PBSC training;
          " Providing improved PBSC outreach, direction, and tools to make PBSC more
             user friendly to EPA offices;
          " Converting additional program requirements to PBSC; and, ultimately,
          " Sharing lessons learned and best practices throughout the Agency.

         This plan generally emphasized greater PBSC use throughout EPA, but there was
         no high-level accountability to ensure the plan s implementation. The plan did
         not outline a detailed strategy to identify additional program requirements that
         could be converted to PBSC, although such a strategy is planned for 2003.
         Furthermore, since EPA contracts generally last 3 years or longer, EPA s plan
         should also include a long-term PBSC strategy to address contracts that will not
         need to be replaced for some time.

         EPA s Acquisition Forecast Database could help identify planned performance-
         based contracts. This web site provides the business community with information
         about upcoming EPA procurements. As of September 4, 2002, of the 204 planned
         contracts listed, 38 (19 percent) were identified as performance-based. Our
         review of the list showed that some traditional services, such as library operations,
         were not identified as performance-based.

         Lack of Accountability For PBSC Within EPA

         EPA s Office of Acquisition Management has attempted to market and promote
         PBSC, but has experienced difficulties with obtaining firm program office
         commitments on future performance-based acquisitions. The Office s staff said
         this is due to the general reluctance of program officials to change their current
         culture of managing large, cost-reimbursable, level-of-effort-type contracts.
         Program officials echoed this sentiment, expressing concerns about major changes
         and the belief that they would be losing control of their business. While the
         Office of Acquisition Management is primarily responsible for all EPA

                                           9
          contracting activity, the Agency has not held program officials accountable to
          ensure the adoption and implementation of PBSC agency-wide. For example,
          another agency (the U.S. State Department) issued a directive that all new service
          contracts must be performance-based, with any deviations justified in writing and
          approved. EPA may need such a commitment from their Senior Resource
          Officials, the primary acquisition planners.

EPA Pilot Project Exhibited Benefits

          EPA was part of OMB s PBSC pilot project from 1994 to 1998 to encourage
          Government-wide acceptance of PBSC and to evaluate its effects. EPA
          participated with two contracts one for operation of a telephone hotline and the
          other for training. The contract price was reported to decrease by 31 percent for
          the hotline and 6 percent for training. In Fiscal 1997, with assistance from OMB,
          EPA conducted a PBSC study within the Superfund program. Nine projects were
          involved in this study, and most appeared to save money. For example, at the
          Oronogo-Duenweg Mining Site, PBSC was responsible for lowering the project
          costs by 30-35 percent while improving the quality of work.

Significant Savings Could Be Achieved

          During our review, we found that EPA missed opportunities to achieve greater
          cost savings and higher quality service. For the 9-month period reviewed
          (October 1, 2001, through June 30, 2002), EPA reported in ICMS (as of
          November 7, 2002) that it obligated a total of $599 million for eligible
          performance-based services, with $116 million labeled performance-based. OMB
          studies have shown that PBSC has the potential to improve customer satisfaction
          by more than 18 percent, and achieve average contract cost savings of 15 percent.
          Applying this potential savings to EPA s remaining obligations eligible to be
          performance-based ($483 million) indicates that EPA could have saved as much
          as $72.5 million during this 9-month period while improving the quality of
          services obtained.

Recommendations

          We recommend that the Assistant Administrator for Administration and
          Resources Management, in coordination with the Senior Resource Officials for
          each Headquarters and regional office and other field locations, promote
          maximum use of PBSC by:

           2-1. Developing and implementing a PBSC plan that includes short-term and
                long-term strategies for maximizing the use of performance based
                contracting. The plan should establish goals for PBSC use in program
                offices and monitor progress against those goals.


                                          10
          2-2. Developing and implementing procedures to improve the use of PBSC,
               such as deploying experienced PBSC contracting personnel to assist
               program offices in developing performance-based statements of work, and
               ensuring that the statements of work contain the required elements.

          2-3. Identifying forums, such as the Innovation Action Council, to help further
               promote PBSC, and to discuss PBSC best practices and issues on a regular
               basis.

          2-4. Developing and implementing a procurement policy addressing the FAR
               Subpart 7.105 requirement to implement performance-based contracting
               methods, or provide a rationale for not using those methods.

Agency Comments and OIG Evaluation

         The Office of Administration and Resources Management agreed with the
         findings and recommendations and included planned corrective actions. The
         Office also provided additional information, and we clarified the report as needed.
         The full response is included in this report as Appendix B.




                                         11
12
                                Chapter 3
        EPA Needs to Improve PBSC Reporting

        OMB s Federal Procurement Data System (FPDS) showed nearly 50 percent less
        PBSC obligations than EPA reported in its own ICMS. This primarily occurred
        because FPDS did not show performance-based task orders issued under non-
        performance-based contracts as being performance-based. EPA made the
        necessary corrections in ICMS but had not submitted them to FPDS. In addition,
        EPA officials said ICMS lacked the capability to provide all data needed in FPDS.
        As a result, EPA s contracting actions were inaccurately portrayed in the national
        database, which serves as a basis for reporting to Congress, the President, and the
        general public, and for performing analysis.

Requirements

        Public Law 93-400, Office of Federal Procurement Policy Act, requires the Office
        of Federal Procurement Policy to establish a system for collecting, evaluating, and
        disseminating Federal contract information. FPDS is that central repository.
        FAR Subpart 4.6, Contract Reporting, requires each executive agency to establish
        and maintain for a period of 5 years a computer file, by fiscal year, containing
        unclassified records of all procurements exceeding $25,000. Agencies must
        transmit this information to FPDS.

        The FPDS Reporting Manual outlines PBSC information reporting requirements,
        and states that PBSC applies only to specific service codes. Any procurement
        action coded as a product or as any of the following services is not eligible to be
        categorized as PBSC in FPDS:

        "   Architect-engineer services.
        "   Construction.
        "   Utility services.
        "   Services that are incidental to supply purchases.

        FAR Subpart 37.102 states agencies are not required to use performance-based
        contracting methods for these services. For PBSC reporting purposes, these
        services are considered not PBSC eligible.

        ICMS is EPA s automated acquisition system and contains information on EPA s
        contracting activities. EPA converts ICMS information to a format compatible
        with FPDS, and this information is then sent to FPDS quarterly. To report accurate
        PBSC information, the Agency must determine whether the procurement action


                                           13
        meets PBSC eligibility requirements, contains required attributes, and uses an
        appropriate service code.

EPA Under-Reported PBSC Activity

        Our comparison of ICMS and FPDS summary level data for October 1, 2001, to
        June 30, 2002, disclosed that almost 50 percent of EPA s PBSC information was
        not shown as such in FPDS (see Table 3-1). EPA s total obligations in the two
        systems, as well as its PBSC-eligible obligations, were within 10 percent of each
        other.

                      Table 3-1: Comparison of ICMS and FPDS Data ($ in millions)
                                                                              Percent
               EPA Obligations             I CM S            FPDS          Under-Reported
           Total Obligations               $649               $594                  8.5%
           Not P BSC Eligible                   50              45              10.0%
           PBS C Elig ible                  599                549                  8.0%
           PBSC                            $116                $61              47.5%


        The PBSC category are obligations for procurement actions that EPA has
        determined met PBSC requirements.

Performance-Based Task Orders Issued Under Non-Performance-
Based Contracts Not Shown as PBSC in FPDS

        FPDS reported $55 million less PBSC obligations than ICMS. ICMS shows
        performance-based task orders issued under non-performance-based contracts, but
        these actions were not shown in FPDS as PBSC. ICMS reported approximately
        $43 million in performance-based task order obligations issued under non-
        performance-based contracts that were not shown as PBSC in FPDS. For example,
        ICMS reported that a national telecommunication and computer services contract
        (68-W7-0055) contained approximately $29 million of performance-based task
        orders, but that amount was not shown as such in FPDS.

         EPA Office of Acquisition Management officials acknowledged ICMS and FPDS
         inconsistencies in reporting PBSC information, and stated that ICMS information
         as of June 30, 2002, which was sent to FPDS, contained these errors. System users
         subsequently corrected the ICMS information, but EPA had not submitted these
         corrections to FPDS at the time of our review. These EPA officials said system
         users data entry is normally not reviewed for accuracy. The Office of Acquisition
         Management s fiscal 2002 Assurance Letter under the Federal Manager s Financial
         Integrity Act indicated that data quality is a major concern in EPA, and they are
         currently investigating these problems and are committed to their resolution.



                                           14
Other PBSC Reporting Inconsistencies

         Another FPDS database reporting inconsistency concerns work assignments issued
         under EPA contracts. EPA designed work assignments to control work flow but,
         unlike task orders, work assignments are not separate funding instruments from the
         basic contract. Therefore, FPDS does not recognize work assignments.
         Consequently, EPA performance-based obligations organized under work
         assignments in ICMS were not reported in FPDS as a performance-based
         obligation.

         Further, work assignments issued under architectural and engineering services
         contracts are not eligible in FPDS to be performance-based due to the service code
         of the basic contract. The architectural and engineering Response Action Contract
         for EPA Region 5 included two performance-based work assignments with a
         combined value of $1.3 million. While these obligations were shown in ICMS as
         performance-based, they were not reported in FPDS as being performance-based.
         The Office of Acquisition Management s fiscal 2002 Assurance Letter notes ICMS
         cannot be used to accurately identify and report dollars on partially performance-
         based work assignment contracts (where some work assignments are performance-
         based and some are not).

         During our sample selection process, we found three contracts that were incorrectly
         coded as performance-based due to data entry mistakes by contracting officials.
         While we did not verify whether there were additional coding errors, EPA officials
         said information entered into ICMS is not validated. EPA should ensure that PBSC
         coding in ICMS is as accurate as possible.

Reporting Improvements Needed

         In accordance with FAR 4.602, FPDS is designed to serve as:

          " A basis for recurring and special reports to the President, the Congress, GAO,
            Federal executive agencies, and the general public.
          " A means of measuring and assessing the impact of Federal contracting on the
            Nation s economy.
          " Data for other policy and management control purposes.

         Until EPA ensures that ICMS data is consistent with FPDS, the Agency s
         credibility as well as any subsequent stakeholder decision making could be
         adversely affected.




                                          15
Recommendations

        We recommend that the Assistant Administrator for Administration and Resources
        Management require the Director, Office of Acquisition Management to:

         3-1.   Periodically review the accuracy of the contracting data contained within
                ICMS, including service codes, and make necessary corrections in a timely
                manner.

         3-2.   Periodically compare ICMS and FPDS data to ensure the reliability of the
                information, and examine any major differences and correct in a timely
                manner.

         3-3.   Summarize the steps taken or planned, and progress made in correcting the
                PBSC data quality issues in the Office of Administration and Resources
                Management s Federal Manager s Financial Integrity Act report.

Agency Comments and OIG Evaluation

        The Office of Administration and Resources Management agreed with the findings
        and recommendations and included planned corrective actions. The response
        mentions significant problems with EPA s contract tracking systems, noting that
         EPA s current systems do not meet our business needs. They provide inadequate
        reporting, cumbersome tracking status, and redundant data entries which result in
        extraordinary inefficiencies and errors. The Office of Administration and
        Resources Management anticipates that the new system it has proposed will correct
        these problems. The full response from the Office of Administration and
        Resources Management is included in this report as Appendix B.




                                        16
                                                                                     Appendix A

                   Details on Scope and Methodology

We performed this audit in accordance with the Government Auditing Standards, issued by the
Comptroller General of the United States. We assessed EPA s policies and procedures to ensure
performance-based service contracts were awarded when possible, determined whether contract
statements of work were designed with performance-based attributes, and determined whether
PBSC information was reported accurately. We performed this audit from December 2001
through November 2002.

To assess EPA s policy and procedures, we reviewed OMB s Office of Federal Procurement
Policy guidelines and policy letters and interviewed OMB and GAO personnel concerning
performance-based contracting. We interviewed EPA personnel at Washington, D.C.;
Cincinnati, Ohio; Research Triangle Park, North Carolina; and Philadelphia, Pennsylvania from
the following offices (the offices are in Washington unless otherwise noted):

               % Office of Administration and Resources Management
                       "   Office of Acquisition Management
                       "   Policy, Training and Oversight Division
                       "   Headquarters Procurement Operations Division
                       "   Superfund/Resource Conservation and Recovery Act
                           Regional Procurement Operations Division
                        " Research Triangle Park Procurement Operations Division
                        " Cincinnati Procurement Operations Division
               %   Office of Environmental Information
               %   Office of Solid Waste and Emergency Response
               %   Andrew W. Breidenbach Environmental Research Center (Cincinnati)
               %   Region 3 (Philadelphia)

Using EPA s active contracts listings as of July 2001 (preliminary research) and June 30, 2002
(field work), we judgmentally selected a total of 30 contracts and task orders considering contract
value, contract type, service type, and area/program/media supported, to obtain a cross-section of
EPA PBSC-eligible service contracts. We selected 10 contracts/task orders
(approximately $16 million maximum potential value) not identified as PBSC even though
similar services had previously been identified as PBSC out of approximately 500
non-performance-based contracts ($11.7 billion maximum potential value). We also selected
20 contracts/task orders (approximately $78 million maximum potential value) out of
approximately 120 contracts ($718 million maximum potential value) that EPA identified as
PBSC.

We did not randomly select the sample because of the relatively low number of EPA
performance-based contracts (approximately 120) and the presence of many low dollar value,
similar contracts. While contract type may be a significant factor in determining whether PBSC

                                                17
contracts were designed to take advantage of the benefits, we did not specifically review the
contracts to determine whether the most appropriate contract type was used in each situation.

To assess whether EPA s policies and procedures ensured performance-based service contracts
were awarded when possible, we reviewed our sample of 10 non-performance-based contracts to
determine reasons for not using the performance-based method. We also reviewed EPA s
September 4, 2002, Acquisition Forecast Database to determine whether the performance-based
method was planned for additional forecasted acquisitions.

To determine whether contract statements of work were designed with performance-based
attributes, we reviewed the 20 statements of work for contracts and task orders to evaluate
whether they contained the required FAR performance-based attributes.

To determine whether EPA reported performance-based acquisitions accurately, we compared
summary-level FPDS information to EPA s PBSC actions recorded in EPA s ICMS. For our
sample of 20 performance-based contracts, we determined whether the action was properly
recorded as PBSC in ICMS. We also interviewed system data operators to determine reasons for
differences. However, we did not review system controls for accurate, complete, and timely data.


Prior Audit Coverage

GAO Report GAO-02-1049, Guidance Needed for Using Performance-Based Service
Contracting (September 2002), raised concerns as to whether agencies have a good
understanding of PBSC and how to take full advantage of its benefits. GAO reported that
various agency officials noted the need for better PBSC guidance and criteria on which contracts
should be called performance-based. OMB s Office of Federal Procurement Policy recognized
this problem and is developing new guidance designed to improve agency use of PBSC.




                                                18
                                                                                   Appendix B

               Agency Response to the Draft Report


                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460




                                            MAR 19 2003
                                                                                 OFFICE OF
                                                                               ADMINISTRATION
                                                                               AND RESOURCES
                                                                                MANAGEMENT


MEMORANDUM

SUBJECT:              Draft Audit Report
                      EPA Could Increase Savings and Improve Quality
                      Through Greater Use of Performance-Based Service Contracts
                      Assignment No. 2002-000319

FROM:                 Morris X. Winn /signed/
                      Assistant Administrator

TO:                   Robert Mitchell
                      Director for Contracts Audit
                      Office of Inspector General


        Thank you for the opportunity to provide comments on the subject draft audit report. We
are in general agreement with the findings, and we appreciate your support in helping us increase
the use of performance-based service contracting (PBSC) to meet the Agency s goals.

         As you are aware, the Administration has set Government-wide goals, which cannot be
met without Agency-wide support and participation. With this is mind, we have taken several
initiatives to promote and market PBSC throughout the Agency. These initiatives, which
strongly emphasize a sharing of the responsibility with our program office customers, include:
providing additional, more focused training upon request; providing improved PBSC outreach,
direction and tools to make PBSC more user friendly to EPA offices; providing hands-on
assistance in converting additional program requirements to PBSC; and sharing lessons learned
and best practices throughout the Agency. Again, we appreciate any assistance that the OIG can
provide in helping to obtain much-needed buy-in from senior level officials.



                                                19
       Detailed comments on the report are provided below. While we generally agree with
your draft report, we take issue with several specific findings (see comments below). Our
responses are discussed by subject in the order of the appearance in the report.

       If you have any questions or comments, please call Judy Davis. Director, Office of
Acquisition Management, at 564-4310 or Joan Wooley at 564-4732.


Chapter 2: EPA Needs to Increase Use of Performance-Based Service Contracting

We agree that EPA needs to increase performance-based service contracting. However, the
report states that of the $599M in PBSC-eligible obligations for the 9-month period reviewed, it
was determined that EPA could have saved as much as $72.5M by better applying PBSC. The
report does not identify how the $599M figure was determined. It would be helpful to us if the
OIG explained how the $599M figure was calculated.

Page 4. Finding: EPA Could Award More Performance-Based Contracts

We agree with the overall finding; however, we disagree with the following and have provided
our rationale.

Contract 68D01051 for Cafeteria Services and Operation of EPA employee store. This contract
is a license agreement for the contractor to operate the cafeteria and employee store. A small
subsidy for the operation of the cafeteria is provided by the Government. The subsidy was
designed to decrease, based on the expectation of the contractor making a profit once the EPA
facility was fully occupied. With the decreasing subsidy and the results-oriented SOW, we
believe that the agreement is more in line with a PBSC contract. However, the nature of the
agreement does not lend itself to specific performance standards (other than those specified by
law (sanitation, business licenses, etc.). Therefore no written incentives or disincentives were
included (other than the incentive for the contractor to make enough money to pay for all
expenses). Based on the facts provided we recommend that this contract be deleted from
table 2-1.

Contract 68-W-00-128 for Voice Mail System Maintenance. We agree that this was not awarded
fully as a performance-based contract. However, we believe that the contract does contain many
performance-based elements. For example, the statement of work is written in terms of what
the output must be rather than how the work is to be accomplished, and measurable
performance standards are defined for all major task areas. The contract is scheduled for
recompete in 2004 and we have started early discussions with the program office to ensure that
the follow-on contract is awarded as full performance-based.

Contract 68-W-00-125 Technical Support for Compliance Assurance. We agree that some tasks
under this contract could be performance-based. However, at the time the contract was awarded,
based on the uncertainties associated with the level of effort and other variables, it would have
been difficult to convert the statement of work (SOW) to PBSC. The contract expires


                                               20
September 2003, and we have been advised by the program office that there will be no follow-on
contract for these services. We will however ensure that where feasible, task orders are PBSC.

Page 7. Finding: Contracts That Were Prescriptive

In our efforts to transition to PBSC some of our contracts may have been prescriptive; however,
we disagree with the following:

Contract 68-C-00-189 and Contract D-98-169 for Security Guard Services. We disagree with the
findings and recommend that these contracts be deleted from table 2-3 as being contracts that
were prescriptive. Since the events of September 11th we had to modify our guard services
contracts to clearly specify our requirements. We no longer consider these services to be low
risk, nor do we believe that the requirements restrict the contractor from using innovative
approaches or shifting responsibility.

Contract 68-W-02-020 Property Management Services. We disagree that this contract contained
PBSC attributes which were overly prescriptive and recommend that this contract be deleted
from the list of contracts identified as being prescriptive. The SOW included a brief background
and purpose, then provided generalized support requirements, further delineated by specific
performance objectives/appropriate performance measures/performance standards. Although we
included a description of the labor categories, we do not believe that this impedes the
contractor s ability to offer innovative approaches to determine how best to perform.

Page 7/8. Finding: Incentives and Disincentives not Meaningful.

Contract 68-W-00-104 Security Support Services. We agree with the OIG that this contract,
awarded in June 2000, contains numerous disincentives of nominal dollar value. Working with
the program office, we will review all of the incentives and disincentives in this contract and
revise them as appropriate to be more meaningful. By June 30, 2003, we will ensure that the
revised incentives and disincentives are incorporated into the contract for option period two.

Page 14 Finding: Performance-Based Task Orders Issued Under Non-Performance-Based
Contracts Not Shown as PBSC in FPDS.

We agree that some data was not properly coded as PBSC or non-PBSC. Corrections have now
been made to ICMS data, based on a review of ICMS data by OAM s operations divisions.
Those changes have been re-submitted to FPDS and have been processed. We have not yet seen
the results.

We also agree that PBSC task orders under non-PBSC contracts were not being submitted as
PBSC to FPDS. This discrepancy accounted for most of the under-reporting of PBSC actions to
FPDS. EPA has corrected its reporting process and has resubmitted the PBSC task order actions
to FPDS. Due to a six week shutdown of FPDS, the re-submission has just been processed.
Again, we have not yet seen the results.



                                               21
Page 15 Finding: Reporting Improvements Needed.

The report states: Until EPA ensures that ICMS data is consistent with FPDS, the Agency s
credibility as well as any subsequent stakeholder decision making could be adversely affected.
ICMS data changes daily, while FPDS is currently updated only quarterly. One of the E-Gov
initiatives planned for FY2004 is development of a new and better data gathering system, Federal
Procurement Data System - Next Generation (FPDS-NG). This system will be updated more
frequently - possibly overnight, but a final decision has not been made. After FPDS-NG is
implemented, it is more likely that the two systems will more closely match.

It should also be noted that EPA s current systems do not meet our business needs. They provide
inadequate reporting, cumbersome tracking status, and redundant data entries which result in
extraordinary inefficiencies and errors. We need a system that can interface with Government-
wide systems as described in the ACQUISITION SYSTEM Project proposed in the FY 2005
OAM Capital Planning for Investment Control Process (CPIC).

The proposed system will be a secure web-based tool, eliminate duplicate data entry, track actual
costs and progress in real time, and provide a Commercial Off The Shelf (COTS) application
consistent with the President s E-Gov initiatives. We appreciate the OIG s help in soliciting
support for this system.

RECOMMENDATIONS

The OIG recommends that the Assistant Administrator for Administration and Resources
Management, in coordination with the Senior Resource Officials for each Headquarters
and regional office and other field locations promote maximum use of PBSC by:

Recommendation 2-1

OIG: Developing and implementing a PBSC plan that includes short-term and long-term
strategies for maximizing the use of performance based contracting. The plan should establish
goals for PBSC use in program offices and monitor progress against those goals.

OARM s Response: We concur with this recommendation and will provide a plan of action to
comply with the recommendation in the final report. It would be helpful if the IG would assist us
in soliciting support from senior officials in the Agency to engage AAs and RAs in helping the
Agency meet its goals.

Recommendation 2-2

OIG: Developing and implementing procedures to improve the use of PBSC, such as deploying
experienced PBSC contracting personnel to assist program offices in developing performance-
based statements of work, and ensuring that the statements of work contain the required
elements.



                                               22
OARM s Response: Although we concur with this recommendation, we currently provide
experienced PBSC contracting personnel to assist program offices, develop PBSC SOW
templates, etc. We will provide details in the final report.

Recommendation 2-3

OIG: Identifying forums, such as the Innovation Action Council, to help further promote PBSC,
and to discuss PBSC best practices and issues on a regular basis.

OARM s Response: We concur with the recommendation. We currently engage in several
venues to promote PBSC. We solicit the IG support in getting buy-in at the senior level.

Recommendation 2-4

OIG: Developing and implementing a procurement policy addressing the FAR Subpart 7.105
requirement to implement performance-based contracting methods, or provide a rationale for not
using those methods.

OARM s Response: We concur with this recommendation.

The OIG recommend that the Assistant Administrator for Administration and Resources
Management require the Director, Office of Acquisition Management to:

Recommendation 3-1

OIG: Periodically review the accuracy of the contracting data contained within ICMS, including
service codes, and make necessary corrections in a timely manner.

OARM s Response: We concur with this recommendation. Please see comments referenced
under the findings on page 14.

Recommendation 3-2

OIG: Periodically compare ICMS and FPDS data to ensure the reliability of the information, and
examine any major differences and correct in a timely manner.

OARM s Response: We concur with this recommendation.

Recommendation 3-3

OIG: Summarize the steps taken or planned, and progress made in correcting the PBSC data
quality issues in OARM s Federal Manager s Financial Integrity Act report.

OARM s Response: We concur with this recommendation and will address this and other data
quality issues in the Federal Manager s Financial Integrity Act report.


                                              23
24
                                                                            Appendix C

                              Report Distribution


Assistant Administrator for Administration and Resources Management
Assistant Administrator for Environmental Information
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Air and Radiation
Assistant Administrator for Water
Assistant Administrator for Prevention Pesticides and Toxic Substances,
Assistant Administrator for International Affairs
Assistant Administrator for Research and Development
Agency Followup Official
Agency Audit Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Director, Office of Acquisition Management
Director, Office of Emergency and Remedial Response
Audit Liaison, Office of Administration and Resources Management
Audit Liaison, Office of Environmental Information
Audit Liaison, Office of Solid Waste and Emergency Response
Inspector General (2410)
Regional Administrators, Regions 1 through 10
Regional Audit Followup Coordinators, Regions 1 through 10




                                             25
